<html>
<title> - NOMINATION OF STEPHANIE O'SULLIVAN TO BE PRINCIPAL DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 112-18]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-18
 
                   NOMINATION OF STEPHANIE O'SULLIVAN
                    TO BE PRINCIPAL DEPUTY DIRECTOR
                        OF NATIONAL INTELLIGENCE

=======================================================================



                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, FEBRUARY 3, 2011

                               __________

      Printed for the use of the Select Committee on Intelligence


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-577                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         OLYMPIA J. SNOWE, Maine
    Virginia                         RICHARD BURR, North Carolina
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BARBARA A. MIKULSKI, Maryland        DANIEL COATS, Indiana
BILL NELSON, Florida                 ROY BLUNT, Missouri
KENT CONRAD, North Dakota            MARCO RUBIO, Florida
MARK UDALL, Colorado
MARK WARNER, Virginia
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            FEBRUARY 3, 2011

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     3

                                WITNESS

Stephanie O'Sullivan, Principal Deputy Director of National 
  Intelligence-
  Designate......................................................     4
    Prepared statement...........................................     5

                         SUPPLEMENTAL MATERIAL

Prehearing Questions and Responses...............................    20
Questionnaire for Completion by Presidential Nominees............    62
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  January 12, 2011, to Senator Dianne Feinstein, Transmitting 
  Public Financial Disclosure Report.............................    74


                   NOMINATION OF STEPHANIE O'SULLIVAN
                    TO BE PRINCIPAL DEPUTY DIRECTOR


                        OF NATIONAL INTELLIGENCE

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2011

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-562, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, Udall 
of Colorado, Chambliss, Burr, Risch, Blunt and Rubio.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    The Committee meets today to consider the President's 
nomination of Ms. Stephanie O'Sullivan to be the Principal 
Deputy Director of National Intelligence. So, welcome, Ms. 
O'Sullivan.
    Before turning to the nomination, let me first publicly 
welcome the six new members of the Committee, who aren't here 
yet but hopefully will be coming along shortly. We are joined 
on the Committee by Senators Conrad, Udall, and Warner on our 
side, and Senators Coats, Blunt, and Rubio on the Republican 
side. So we have six new members of this Committee, which I 
think both the Vice Chairman and I very much look forward to.
    I note that Senator Coats is returning to the Committee, 
having served here in the 105th Congress. I also want to 
congratulate Senator Saxby Chambliss on his Vice Chairmanship. 
We've worked together on this Committee since you joined, 
Senator, in 2002. And I look forward to a close, good, positive 
working relationship, and all I can say is so far, very good.
    Vice Chairman Chambliss. Thank you.
    Chairman Feinstein. Before turning to the nomination, I 
would also like to note two important matters that are before 
us this month.
    On February 16th, the Committee will be holding its annual 
worldwide threat hearing. That hearing provides the leaders of 
the intelligence community with an opportunity to present to 
the Committee and the public their assessment of current and 
projected national security threats to the United States. The 
Committee will be interested in exploring with them their 
assessments of the vast changes sweeping through the Middle 
East and North Africa.
    On February 28 three important authorities under the 
Foreign Intelligence Surveillance Act--the so-called business 
records, roving wiretap, and lone-wolf provisions--will sunset. 
That's three weeks from now, essentially, unless the Congress 
acts to extend them.
    The Attorney General and the Director of National 
Intelligence have written to the congressional leadership in 
support of legislation that I've introduced to extend these 
authorities to December 31, 2013. The whole PATRIOT Act comes 
up for review--it sunsets--in 2013. That's really the time to 
look at the entire Act and make some decisions as to whether 
there should be reforms, changes, amendments, whatever, at that 
time.
    I'm very concerned that these three sections, which are 
really vital for ongoing operations, essentially default, and I 
think that would place our nation in some increased insecurity. 
So I am hopeful that this will be Rule Fourteened to the floor 
and we can have a straight up or down vote on a straight three-
year extension of those three provisions.
    And now to the nomination. Ms. O'Sullivan was nominated to 
be Principal Deputy Director to DNI Clapper on January 5th of 
this year. If confirmed, she will be the second-most senior 
intelligence professional in the government, with the 
significant responsibility to assist DNI Clapper in his 
management and direction of the entire community.
    Director Clapper has laid out his goal for his office to 
force a better fusion in the intelligence community between 

intelligence collection and analysis, and to make the whole 
greater than the sum of its parts. Ms. O'Sullivan has stated 
that she shares this goal and has agreed to take on the 
challenge to see it accomplished.
    The importance of this mission has been underscored this 
week by the instability and protests in the Middle East. The 
President, the Secretary of State, and the Congress are making 
policy decisions on Egypt, and those policymakers deserve 
timely intelligence analysis. I have doubts whether the 
intelligence community lived up to its obligations in this 
area, which is an issue that the Committee will continue to 
examine as time passes.
    Now, that's not, thankfully, a question aimed at Ms. 
O'Sullivan. As an Associate Deputy Director of the CIA, her 
role is akin to that of the chief operating officer, ensuring 
that the agency functions effectively and efficiently. She has 
served in this role since December of 2009, transforming 
Director Panetta's objectives into actions.
    Prior to this position, Ms. O'Sullivan headed CIA's 
Directorate of Science and Technology for four years. In that 
role she managed the CIA's technical innovation and support to 
case officer operations. While almost everything in this area 
is highly classified and unfortunately can't be discussed here, 
the Committee has taken a real interest in several of these 
programs and found them to be on the cutting edge of science 
and unique assets to the community.
    Ms. O'Sullivan spent over 14 years combined in the 
Directorate of Science and Technology. She was formerly in the 
Office of Naval Intelligence, and before that she worked at 
TRW, now part of Northrop Grumman.
    As a nominee to be Principal Deputy DNI, Ms. O'Sullivan has 
answered numerous pre-hearing questions and met with Members. 
Her answers to those questions will be posted today on the 
Committee's website.
    So I look forward to your statement and answers to Members' 
questions, and hope that we will be able to get you confirmed 
quickly and painlessly through the Senate. I know that DNI 
Clapper very much shares in that hope as well.
    I'll now turn to our distinguished Vice Chairman and then, 
if you will, give you an opportunity to introduce your family 
and make any opening remarks you would care to make.
    Ms. O'Sullivan. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you. Mr. Vice Chairman.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Thank you, Madam Chairman. First 
of all, let me say that at the hearing the other day when you 
were unable to be with us I made the comment--and I want to 
make it again--about the fact that I appreciate, as a member of 
this Committee, particularly on the minority side, the way that 
you have conducted yourself as Chairman in both our classified 
and unclassified hearings, and all other aspects of serving as 
Chairman.
    You have made sure that every member of the Committee--it 
didn't make any difference which side of the aisle we were on--
had total input into whatever the issue was, and I commend you 
for that and want to make sure you know that I feel personally 
very strongly about the fact that we are going to have a very 
strong working relationship. We've had the opportunity to work 
together before. And it's going to be interesting times that we 
have to deal with, but I thank you for your leadership.
    Chairman Feinstein. Thank you. I appreciate that.
    Vice Chairman Chambliss. Ms. O'Sullivan, I join the Chair 
in congratulating you on your nomination. You have a 
distinguished career and we appreciate your willingness to 
serve in the number-two job in the intelligence community.
    In your responses to the Committee's questions, you 
describe the many serious threats our nation faces. And as we 
watch the events in the Middle East unfold, we are reminded of 
how important good and timely intelligence is to staying ahead 
of the rapid changes in our world. A big part of your new job 
will be to make sure that our intelligence community collectors 
and analysts live up to this task.
    As you and I talked yesterday, information sharing is of 
critical importance. It's important to get the information, but 
then it's also extremely important to make sure that it gets 
into the hands of those people who are making the decisions, 
including yourself in this position. And I want to make sure 
that we continue to give the due diligence to the sharing of 
information within the community. Of course, we have a major 
oversight of that, but as the number-two person at DNI, you are 
going to have a major role in that particular issue too.
    As you noted, the ongoing threat from al-Qa'ida in the 
Arabian Peninsula, the same group responsible for the failed 
Christmas Day attack, is high on our radar screen. Amplifying 
this concern is the fact that former Guantanamo Bay detainees 
have joined AQAP. How to handle the remaining Gitmo detainees 
and ensuring that host countries actually monitor already-
released detainees remain critical problems.
    We know the IC plays an important role in this area. 
Congress, too, has its own oversight responsibilities. I expect 
that in your new position you will help make sure this 
Committee has all the information we have asked for and need to 
fulfill our responsibilities. Today and in the coming months, I 
look forward to hearing your views on other oversight matters, 
including the ODNI's reorganization under Director Clapper and 
how it will improve the IC's collection and analysis.
    As the budget debate heats up here in Washington, we'll 
look for your ideas on how the IC can run more efficiently and 
cost-effectively. The days of bloated government budgets, 
including for the IC, must be behind us. This Committee has a 
good track record in taking firm stances on budget issues, and 
I expect that trend to continue in this Congress.
    These are just a few of the issues facing the IC and the 
ODNI. We look forward to hearing your ideas today, and we look 
forward to a speedy confirmation process and to continue to 
work with you. I thank you.
    Ms. O'Sullivan. Thank you, Mr. Vice Chairman.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Ms. O'Sullivan.

STATEMENT OF STEPHANIE O'SULLIVAN, PRINCIPAL DEPUTY DIRECTOR OF 
                NATIONAL INTELLIGENCE-DESIGNATE

    Ms. O'Sullivan. Madam Chairman, Vice Chairman Chambliss and 
distinguished members of the Committee, it is an honor to 
appear before you today as the President's nominee for the 
position of Principal Deputy Director of National Intelligence.
    I also want to thank you for welcoming my family. I am 
pleased that my husband Patrick, my parents Adam and Barbara, 
and my brother-in-law Timothy could join me. Their support and 
grounding have been essential to my ability to serve in public 
service throughout my career.
    That service encompasses almost 30 years spent in or 
supporting our country's intelligence community. During that 
time I have served in private industry, the Department of 
Defense, and the Central Intelligence Agency. I have delivered 
systems and new capabilities in every intelligence discipline. 
I have worked across the intelligence cycle, from research to 
operations, and I have worked across the intelligence community 
in partnerships that delivered more than either of us could 
have alone.
    I fully comprehend both the challenge and the grave 
responsibility bestowed upon the Director of National 
Intelligence and, if confirmed, would strive to meet both the 
challenges and fulfill the responsibilities of the office.
    The DNI is charged with protecting our country in a time 
where we are collectively facing a daunting set of threats and 
challenges. In this environment, a strong and effective DNI and 
its leadership has never been more important. If I am 
confirmed, I look forward to supporting Director Clapper's 
goals to better integrate the intelligence community and to 
ensure that the community is efficient in both its structure 
and its operation.
    I also look forward to supporting the DNI and the 
intelligence community's imperative to keep Congress fully and 
currently informed. The oversight process is the basis by which 
the intelligence community maintains the trust of the Congress 
and the people that we serve. Moreover, oversight is a valuable 
contribution to improving the quality of intelligence. If 
confirmed, I will ensure that the intelligence community is 
meeting its statutory obligations to fully and currently inform 
the congressional oversight Committees of intelligence 
activities.
    Thank you again for the opportunity to appear before you 
today, and for your consideration of my nomination. I look 
forward to answering your questions.
    [The prepared statement of Ms. O'Sullivan follows:]
Opening Statement of Stephanie L. O'Sullivan, Nominee for the Position 
         of Principal Deputy Director of National Intelligence
    Madam Chairman, Vice Chairman Chambliss, and distinguished members 
of the Committee, it is an honor to appear before you today as the 
President's nominee for the position of Principal Deputy Director of 
National Intelligence (PDDNI). I also want to thank you for your time 
and consideration of my nomination and of my record in public service.
    That service encompasses almost thirty years spent in, or 
supporting our country's Intelligence Community. During that time I 
have served in private industry, the Department of Defense, and the 
Central Intelligence Agency. I have delivered systems and new 
capabilities in every intelligence discipline. I have worked across the 
intelligence cycle from research to operations and learned the value of 
innovation in each of them. I have worked across the Intelligence 
Community in partnerships that produced more than either party could 
have alone and experienced the potential that can be found in an 
integrated enterprise. I fully comprehend both the challenge and the 
grave responsibility bestowed upon the Director of National 
Intelligence (DNI) and if confirmed, would strive to meet the 
challenges and fulfill the responsibilities of the office.
    The DNI is charged with protecting our country through the 
provision of timely, objective, and accurate intelligence to 
policymakers and the effective management and integration of the 
Intelligence Community. The DNI is also responsible for ensuring that 
the Intelligence Community, as it fulfills its obligations, complies 
with the direction of the President and with our country's laws and 
Constitution.
    In order to implement these responsibilities, the DNI integrates 
intelligence capabilities and products, sets priorities, and allocates 
resources. The DNI also leads the community in initiatives designed to 
improve its effectiveness and efficiency. The PDDNI assists the DNI in 
carrying out his or her duties and responsibilities. The PDDNI supports 
the DNI's policies to include integrating intelligence, leading the 
U.S. Intelligence Community, and protecting U.S. national security. The 
PDDNI also acts and exercises the powers of the DNI upon the absence or 
disability of the DNI. If I am confirmed, I look forward to supporting 
Director Clapper's goals to better integrate the Intelligence Community 
and ensure the Community is efficient in both its structure and 
operations.
    Given the threats and challenges facing the Intelligence Community, 
it has never been more important for the DNI to exercise strong and 
effective leadership. As a nation, we are facing a daunting number of 
threats ranging from terrorism, to the development and proliferation of 
Weapons of Mass Destruction, to cyber security. In the face of these 
competing imperatives, the ability of the DNI to adjudicate and set 
priorities is essential.
    DNI leadership is also needed to address the management challenges 
faced by the Intelligence Community. The DNI's leadership will be 
required in defining a path forward for information sharing that 
recognizes, and appropriately balances, the inherent risks without 
jeopardizing the gains we have achieved through deeper integration. DNI 
leadership on efficiency and effectiveness initiatives will be key to 
optimizing the Intelligence Community's budget and resources in the 
face of inevitable constraints. Finally the DNI has one additional 
leadership duty, to lead the men and women of the Intelligence 
Community. Working with our Congressional oversight committees, the DNI 
must both support their efforts to protect our country and challenge 
them to give their best.
    Accomplishing all of this will require that the DNI has a strong 
and effective leadership team. DNI Clapper has generally defined 
responsibilities within his leadership team such that the PDDNI will 
serve as the Chief Operating Officer for the Intelligence Community as 
well as the Office of the DNI (ODNI). Internally the PDDNI will be 
focused on the management and oversight components of the DNI's office, 
while the Deputy Director for National Intelligence for Intelligence 
Integration (DDNI/II) focuses on the ODNI components responsible for 
integrating analysis and collection. Externally, the DDNI/II is focused 
on supporting the National Security Staff and policymakers, while the 
PDDNI will be focused on the Intelligence Community components and the 
DNI's oversight and reporting responsibilities. If confirmed as PDDNI, 
I would also have full visibility into, and understanding of, 
intelligence matters such that I would be prepared to act for the DNI 
in his absence.
    I believe that the DNI has assembled a leadership team that builds 
on the strength of our community. I believe that my own background in 
technology, development and acquisition, and clandestine operations, as 
well as my experience at CIA will complement the DNI's own experience 
and that of his leadership team.
    I will close by addressing the Intelligence Community's imperative 
to support Congressional oversight. I believe in and value the 
Congressional oversight process, and if confirmed as PDDNI, I will 
fully support the Intelligence Community's notification and reporting 
obligations to our oversight committees in Congress. The oversight 
process is the basis by which the Intelligence Community maintains the 
trust and confidence of Congress and the people we serve. Keeping the 
congressional oversight committees currently and fully informed of 
significant intelligence activities, anticipated intelligence 
activities and intelligence failures is fundamental to the system of 
checks and balances embedded in our government and the only way an 
intelligence organization can effectively operate within our open 
society. Moreover, oversight is a valuable contribution to improving 
the quality of intelligence and the effective, efficient operation of 
the Intelligence Community. If confirmed, I will ensure that the 
Intelligence Community is meeting its statutory responsibilities to 
fully and currently inform the Congressional oversight committees of 
intelligence activities.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer your questions.

    Chairman Feinstein. Thank you very much, Ms. O'Sullivan. 
There are several standard questions that I might ask you, so 
I'm just going to go through them very quickly. I think you can 
answer them with one word.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Ms. O'Sullivan. Yes.
    Chairman Feinstein. Do you agree to send officials from the 
Office of the Director of National Intelligence and elsewhere 
in the intelligence community to appear before the Committee 
and designated staff when invited?
    Ms. O'Sullivan. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Ms. O'Sullivan. Yes.
    Chairman Feinstein. Will you ensure that the Office of the 
Director of National Intelligence and officials elsewhere in 
the intelligence community provide such material to the 
Committee when requested?
    Ms. O'Sullivan. Yes.
    Chairman Feinstein. Do you agree to inform and fully brief, 
to the fullest extent possible, all members of this Committee 
of intelligence activities and covert actions rather than only 
the Chairman and Vice Chairman?
    Ms. O'Sullivan. Yes.
    Chairman Feinstein. Thank you very, very much. And I have a 
couple of questions.
    On August 20, DNI Clapper established the position of 
Deputy Director of National Intelligence as the new third-
ranking position in the Office of DNI, and he eliminated the 
four deputy DNI positions that had existed previously. The same 
day, DNI Clapper also announced that Robert Cardillo, former 
Deputy Director for Analysis at the DIA, would serve as the 
first Deputy DNI for Intelligence Integration.
    In your written responses to our Committee's pre-hearing 
questions, you stated that ``the PDDNI is responsible for 
ensuring the adequate and appropriate resources, policies and 
process to maximize intelligence integration.'' But you also 
wrote, ``The DDNI too is responsible for the integration of 
intelligence across the intelligence community.''
    Who is in charge of making sure intelligence information is 
integrated and shared across the intelligence community? Would 
it be you, if you're confirmed, or is it Mr. Cardillo?
    Ms. O'Sullivan. The Director of National Intelligence has 
set the agenda, and he has the primary responsibility. Both 
Robert Cardillo and I will fully support his objective of doing 
that. So I would feel bound to answer that call, and I would 
feel that that would be a primary responsibility that I 
carried.
    Chairman Feinstein. Now I'm confused. You're saying that he 
has the primary responsibility.
    Ms. O'Sullivan. General Clapper has the primary 
responsibility, and both of us will be supporting him in that 
role.
    Chairman Feinstein. Well, who makes sure that intelligence 
is integrated and shared across the community? Which person?
    Ms. O'Sullivan. That would probably fall into my area of 
primary responsibility as I understand the structure of the 
office. Robert Cardillo's primary role is in integrating 
collection and analysis and identifying intelligence gaps, 
which are then passed to the rest of the community to effect 
solutions. I would be responsible for overseeing the process of 
the trades and implementation across the rest of the community.
    Chairman Feinstein. Good. Now that's very clear and on the 
record, so thank you.
    I wanted to ask you a question on contractors, if I can 
find it here. We have been increasingly concerned about the 
IC's heavy dependence on contractors. The actual numbers are 
classified at the secret level, but past DNIs and agency heads 
have all generally agreed that there's an over-reliance on 
contractors that have put inherently governmental work in the 
hands of the private sector.
    As you know, the law is that if the work is inherently 
governmental, it must be done by a government employee, not a 
contractor. And contractors have increased costs, roughly 70 
percent per position. In other words, it is much more expensive 
to do it that way, and it means that the government does not 
develop and obtain its own expertise. It's delegated out at 70 
percent greater cost.
    Your answers to the Committee's pre-hearing questions state 
your belief that contractors can help the government meet its 
short-term needs. You wrote, ``If the immediate security of the 
nation or United States citizens or our interests are 
threatened, then the surge use of contractors is an appropriate 
consideration.'' Now, this budget is likely to have cuts, as 
you may guess. Will you make reducing the use of contractors 
within the IC a priority, if confirmed?
    Ms. O'Sullivan. Madam Chairman, if confirmed, I would 
pledge to take a very close look at those contractors. The key 
word in my response was ``surge'' use. That does not mean 
sustained forever. Contractors bring unique and valuable skills 
and they fill surge needs, but we should take a look at it 
periodically, on an ongoing basis, to make sure that they are 
not just continuing out of inertia.
    Chairman Feinstein. Well, as long as you know and take a 
look at the gross numbers, which are astonishing.
    Ms. O'Sullivan. I would pledge to do that.
    Chairman Feinstein. And, in fact, the department has 
pledged itself to, I believe to a 5-percent reduction of 
contractor use a year, which, candidly, is rather de minimus. 
So I would like to ask that you look at that, and we will be 
calling on you in the future to question you further on it.
    Ms. O'Sullivan. I have experience doing that already.
    Chairman Feinstein. Okay, thank you.
    Mr. Vice Chairman.
    Vice Chairman Chambliss. Thank you.
    Ms. O'Sullivan, the Committee has been reviewing the 
disposition of Gitmo detainees and the process used to decide 
whether to detain or release these detainees. As the recidivism 
rate continues to rise, we need to make sure that transfer 
countries really do have eyes on any released detainees. The 
Committee is still waiting for some key documents from the 
administration on this issue. Will you commit to working with 
the Committee to help us get all the documents that we have 
requested?
    Ms. O'Sullivan. If confirmed, I would pledge to make 
available all the information that this Committee needs to the 
best of my ability, including on this issue.
    Vice Chairman Chambliss. The ODNI has acknowledged that the 
DNI acted in a policy role in the decisionmaking process for 
transferring detainees. Do you believe that's an appropriate 
role for the DNI and if so, why?
    Ms. O'Sullivan. The process by which we are working the 
Gitmo detainee is a cross-community process. Intelligence 
officers inform that process. They also have a say as to the 
risk involved. So it's appropriate that the community informs 
the interagency process as to what the risks are and the 
capabilities of liaison countries.
    Vice Chairman Chambliss. So do you think the DNI is an 
appropriate person to be on that policymaking side?
    Ms. O'Sullivan. I think he is appropriate to consult.
    Vice Chairman Chambliss. Okay. Let me just express a 
concern that has been brought up from time to time since 
creation of the DNI. It's something you and I talked about a 
little bit yesterday, and that's the size of the DNI. I don't 
want to put you in a position of saying the DNI is too big or 
not big enough but certainly one of the problems that we've had 
in the intelligence community is sometimes wading through the 
bureaucracy.
    I would just urge you that in your position as General 
Clapper's right-hand person that you look at the size and the 
scope of the work being done by the DNI and if we can from the 
policy side help make decisions and work with you with regard 
to either trimming it down or making it more efficient I'd just 
urge you to think outside the box and let us help you do that.
    Lastly, since the Wikileaks disclosure began the tug 
between the need to know versus the need to share has come 
under increased scrutiny. What are the key factors that you 
believe should be considered in resolving this tension between 
need to know and need to share?
    Ms. O'Sullivan. To your first question on the size of the 
DNI, I agree with you that it would be difficult for me to make 
a substantive assessment looking at the DNI's office from the 
outside. However, if confirmed I would pledge to do what I have 
always done when I'm responsible for leading a group of 
intelligence community men and women. I would make sure that 
their efforts are not wasted because they are duplicative.
    I would make sure that their efforts had an impact and I 
would make sure that they had the tools and resources needed to 
do the job that you expect of them. I would look at the cadre 
mix, the skills mix across the organization, and that would 
include looking at the size of the organization. I would do 
this because every single person in the intelligence community 
wants to feel that they are making an impact and having a 
bottom-line addition to the community. They want to feel value 
added. They deserve that their work is value added, and that 
means taking a careful look at what we're asking them to do.
    On your second question about intelligence sharing, need to 
share and need to know are not and cannot be mutually exclusive 
for the intelligence community. We definitely have intelligence 
sources that must be protected. Lives are indeed at stake. We 
also cannot afford to give up the gains that we have made--the 
very real gains we have made--via deeper integration and 
sharing that we've had since 9/11.
    That has been important to keeping our country safe and it 
has really truly meant that we are able to do things that we 
weren't in the past. There are things that we can do to balance 
those two competing objectives and the way forward I think has 
been laid out by the DNI's staff working with the intelligence 
community and is focused on looking at access across the 
community, looking at the configuration of systems so that it's 
not possible anymore to have a CD that you put in a computer 
and walk out with lots of data and is focused on audit and 
monitoring, and we have started moves in all of those 
directions to implement capabilities which I think will make us 
stronger and not sacrifice our duty to share.
    Vice Chairman Chambliss. Well, thank you very much and 
thanks for the great work you've done in the past with the 
community and we look forward to continuing to work with you.
    Ms. O'Sullivan. Thank you, Vice Chairman.
    Chairman Feinstein. Thank you, Mr. Vice Chairman.
    Senator Burr.
    Senator Burr. Thank you, Madam Chairman.
    Ms. O'Sullivan, welcome, and I say on behalf of all of us 
thank you for your commitment to the country and to the effort 
up to this point, and I for one hope this is an expeditious 
process, that we move on and that we can have you within the 
DNI with your expertise, which I think are invaluable to us.
    Let me follow up on what Senator Chambliss raised and 
specifically go to one area. I think we can all agree that 
there is duplication within the DNI as it relates to analysts. 
Now, there's not a part of the IC community that analysts 
aren't crucial to their work, and I guess I would ask you is 
there a point we can get to where we have over-analyzed an 
issue? Do you have the lack of confidence in the rest of the IC 
community that you strongly feel that there's a need to 
continue to grow analysts within the DNI, or is that an area 
that you'd feel comfortable relying on the products that come 
from the rest of the intelligence community?
    Ms. O'Sullivan. The DNI's role is that of setting 
standards, making best practices move between organizations, 
doing common training and sharing the skills that we have 
across the community. It's a valuable role and it needs to be 
there. We also need the DNI's function, and we've had it for a 
long time in the community in the body of the NIC, to integrate 
analysis that comes from all the disparate and different skill 
sets of the community--an imagery analyst piece versus a SIGINT 
analyst piece versus what would come from an all-source analyst 
or a military analyst. To get the full picture for 
intelligence, somebody needs to integrate that and the DNI has 
picked up that ongoing community responsibility. I do not 
believe that they have added unnecessarily to it. That 
integration job is a very, very big job.
    Senator Burr. In most cases would you agree that within the 
DNI they take that raw data that is available and analyze that 
to get their own snapshot?
    Ms. O'Sullivan. I think they take the raw data that's 
available and see what happens when you put it together.
    Senator Burr. Let me ask you, if I could--one of the 
frustrations I go through as a member of the Committee--and I 
might speak on behalf of the entire Committee--is we're asked 
to do oversight on the intelligence community. In most cases 
we're denied access to raw data. I would ask you, if confirmed 
today, would you do everything you can, in the instances that 
we feel we need the raw data, as a Committee to be supplied the 
raw data to do our oversight job?
    Ms. O'Sullivan. I would indeed, if confirmed, pledge to do 
everything possible to get the information that you need to do 
your job to the best of my ability. Now, I understand that 
there are sometimes competing jurisdictions across committees 
and that the raw information may fall into that bucket. But, 
again, I would pledge to do everything possible to make this 
Committee's role of oversight of intelligence effective.
    Senator Burr. I would hope, with the coordinating role that 
you see Director Clapper in, that he could overcome those 
territorial boundaries and make sure, especially within the IC 
community, that we have the tools we need.
    Ms. O'Sullivan. Director Clapper is quite persuasive.
    Senator Burr. Let me ask you one last question if I could, 
and this is really regarding the 2007 NIE. That Estimate was on 
Iran's nuclear program and former CIA Director Jim Woolsey said 
publicly that this was the worst and most irresponsible 
National Intelligence Estimate ever, that confused its 
headlines with its footnotes, and the headline was that Iran 
had stopped its nuclear weapons program, but the footnote said 
oh, by the way, it's still enriching uranium.
    In my view, an additional problem was that key judgments of 
this NIE were publicly released. Now, this has not only 
complicated our intelligence efforts within our allies and our 
partners but it could also serve to have a chilling effect on 
future NIEs. If analysts believe that there's a chance that any 
part of their work might be made public they could alter or 
hold back their fullest analytical assessments from 
policymakers.
    What's your personal view as it relates to publicizing the 
National Intelligence Estimates?
    Ms. O'Sullivan. The men and women of the intelligence 
community are responsible for informing policymakers in the 
decisions that they have to make. We are committed to providing 
the most fulsome views to those policymakers, including all of 
the footnotes, including all the debates.
    The policymakers then make the decisions for how best to 
take that information forward and use it. Of course, we are 
concerned for the security and sensitivities that you noted and 
we would make those sensitivities clear as part of our 
production of the product.
    Senator Burr. Would you agree that that could affect the 
analytic product if too much of that became public?
    Ms. O'Sullivan. I think that the analysts in this 
intelligence community are more devoted to making sure that 
policymakers have the information on their desk; that they 
would not withhold anything because of that.
    Senator Burr. Great. Thank you very much, Madam Chairman.
    Ms. O'Sullivan. Thank you.
    Chairman Feinstein. Thank you very much.
    Senator Rubio.
    Senator Rubio. Thank you, Madam Chair.
    Thank you, Ms. O'Sullivan.
    Really one main question. How would you assess the state of 
affairs in collecting and analyzing intelligence from detainees 
that we're capturing around the world?
    Ms. O'Sullivan. I believe what we're doing across the 
community--including with our partnerships with DOD and law 
enforcement--that we're getting the best access to the 
information we can.
    When we can get access to people we are getting the 
information that we need. The capabilities and tools that we 
have are effective in supporting that.
    Senator Rubio. The other question I had, I think, as we're 
watching events in the Middle East unfold, are there any 
lessons you take in terms of long-term strategic analysis that 
we could learn with regard, for example, to what's happening in 
Egypt in terms of long-term planning for our different 
intelligence community agencies?
    Ms. O'Sullivan. The events in Egypt are rapidly unfolding 
and the intelligence community is working full out to track 
them on the ground. But the minute that things started earlier 
on in Tunisia, the intelligence community started looking at 
the longer-term strategic impacts.
    That's a balance that we always pursue. We set aside and 
value as part of our trade craft the stand-back look and the 
projection of things and trends as they go forward, as well as 
our obligation to keep the policymakers currently informed of 
events as they unfold. So I don't think that we would ever lose 
sight of that.
    And of course, we will always do after-action looks to see 
if there was something more that we should have done as we look 
back.
    Chairman Feinstein. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Madam Chair, I appreciate this hearing. And 
I also want to say how great it is to see you back as a picture 
of good health as we begin this hearing and we are glad you're 
here.
    Ms. O'Sullivan, let me ask you, picking up on Senator 
Rubio's question, because I think the whole question of Egypt 
and what we knew when is critical.
    Can you tell me when the intelligence community first 
alerted the President and other policymakers that Egyptian 
street protestors were likely to threaten President Mubarak's 
hold on power?
    Ms. O'Sullivan. The IC has assessed for some time that the 
political stagnation in these countries has been untenable in 
the long run and briefed that up to policymakers. Our experts 
have been closely following the drivers of change from economic 
instability and conditions to the youth bulge in these areas 
and other societal factors that underlie the current crisis.
    We will continue to monitor developments as we go forward. 
And we will continue to feed, in a continuous process, 
indicators of additional instability across the region.
    Senator Wyden. That's helpful, but that's not the question 
I asked. The question I asked was when did the intelligence 
community first alert the President and policymakers that 
protestors were likely to threaten President Mubarak's hold on 
power?
    Ms. O'Sullivan. We have warned of instability. We didn't 
know what the triggering mechanism would be for that, and that 
triggering mechanism happened at the end of the last year.
    Senator Wyden. So did you give him a sense at the end of 
last year--I mean, if you don't want to give me a specific 
date--I am interested in when the President was told how 
serious this was. I mean, if you tell me it was the end of last 
year or last week or last month--you don't have to give me a 
specific, you know, specific date, but this goes again to the 
function of intelligence. And to me, the intelligence 
community's primary job is to collect information from people 
who know important things. And you can't just gaze into a 
crystal ball and try to guess what can't be predicted.
    But I do want to get a general sense of when you all told 
the President that we were faced with something that was as 
serious as what we have seen in recent days.
    Ms. O'Sullivan. I'm afraid I'm not going to be able to 
satisfy your specific question. My duties involved a more 
general understanding of the debates that were going on and not 
the face-to-face briefing of the President over this past year.
    Senator Wyden. You were told yesterday I was going to ask 
this question, weren't you?
    Ms. O'Sullivan. Not in this detail, sir.
    Senator Wyden. All right. Because I think--I'm told by 
staff that we notified you specifically, because I wanted to 
get into this area. So I think it's unfortunate we're not 
getting more specifics, given the fact you were put on notice.
    Speaking more broadly, do you think it's realistic to 
expect U.S. intelligence agencies to have deep coverage of 
every country in the world, or should policymakers just expect 
to focus really on high priority countries and issues?
    Ms. O'Sullivan. The intelligence community has to have 
coverage of every area of the world that we possibly can in 
preparation for those hot spots that policymakers need to focus 
on. We don't get to relax our vigilance on global coverage as 
we chase the current unfolding crisis.
    Senator Wyden. What's the role of the DNI in all this? When 
the DNI, for example, lays out certain priorities for 
intelligence collection and analysis, how will you expect the 
various agencies to react?
    Ms. O'Sullivan. The DNI has a very critical role. The DNI 
adjudicates between competing requirements and then allocates 
resources aligned to those top priority requirements.
    And the classic example you've just laid out is one that we 
frequently wrestle with, which is how do we cover the whole 
world and maintain the crisis collection and assessments on 
ongoing and unfolding events.
    Senator Wyden. Let's see if I can get one other question 
in, Madam Chair, and that's the role of the DNI in relations 
with the CIA.
    The Congress created the position of DNI so that there'd be 
somebody who was responsible for looking across all of the 
various intelligence agencies to make sure the enterprise was 
as effective as possible. And one of the questions that those 
of us on the Committee ask every time we confirm a new Director 
or a Deputy Director of National Intelligence is how well is 
the concept working.
    So from your vantage point as a senior manager at the CIA, 
how well is the concept of a Director of National Intelligence 
working in practice?
    Ms. O'Sullivan. I can tell you unequivocally, as a member 
of the senior management team at CIA, that we are fully on 
board with the DNI's leadership and vision for the community. 
It resonates with us, his vision; with all the men and women of 
the community it resonates. His vision focused on mission and 
integration works. It makes sense to everyone.
    We went through a lot of stand-up pains in the community, 
but in my assessment and my experience over the last year or 
so--and especially as Director Clapper has come on and laid out 
his vision--I believe that most of that is behind us.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Blunt.
    Senator Blunt. Thank you, Madam Chair.
    Ms. O'Sullivan, thanks for coming by and having a chance to 
visit yesterday. And I'm pleased to be here with a Missourian 
nominated for such a high and important position in the 
security of our country.
    You've been at the CIA for what, the last 15 years?
    Ms. O'Sullivan. Since 1995.
    Senator Blunt. So you've been there during the entire time 
that we've changed structure from----
    Ms. O'Sullivan. That's correct.
    Senator Blunt [continuing]. From 2001 until today.
    A handful of years ago, what was your job at the CIA--four 
or five--the last job before the one you have now?
    Ms. O'Sullivan. I was the Director of Science and 
Technology at CIA.
    Senator Blunt. So in all places--I was actually going to 
ask Senator Wyden's question, because I thought you probably 
have had as good a view of this from inside as almost anybody. 
And I heard your answer yesterday, which you gave the same 
answer again today. And I hope your optimism's well founded.
    What do you think about DNI Clapper's--how's the 
reorganization that he is in the midst of going to impact the 
way that the DNI responsibilities are handled differently than 
they have been before the reorganization?
    Ms. O'Sullivan. His reorganization reflects his vision.
    So it's focused on integration. It's focused on efficiency 
in both the structure that he is standing up and the management 
team that he has, which is why he's restructured the way he 
has. And so it resonates because it's true from top to bottom. 
He's walking the talk in his own organization, as well as 
laying the path for the community.
    Senator Blunt. And how would you describe his vision as 
different? Is he so very focused on integration as the 
principal responsibility, or how would you see his vision for 
what the job is, as opposed to maybe what the job has been 
doing before?
    Ms. O'Sullivan. Well, I'm very thankful for all the people 
who came before in these jobs, because there was a lot of heavy 
lifting that had to be done. So we're standing on their 
shoulders. But what General Clapper is able to do now--because 
I think the community is at that point, and the vision he has 
brought starts with mission. And mission is what motivates the 
men and women of the intelligence community. That's why we are 
here every day. That's why they make the sacrifices they do.
    And so when you start with mission and you lay that out and 
then show how integration can make that mission more effective, 
you can get extraordinary things out of the people in this 
community. And that's why I think it's resonating, and that's 
why I'm optimistic.
    Senator Blunt. And what is the principal mission of the 
DNI?
    Ms. O'Sullivan. To protect our country.
    Senator Blunt. To protect our country. And the DNI's unique 
role in that is what?
    Ms. O'Sullivan. The DNI has the responsibility of 
integrating the community. He has the responsibility of being 
the intelligence advisor to the President, carrying forward all 
the information that the intelligence community brings. He has 
a responsibility of making sure that the intelligence community 
acts in compliance with the laws and the Constitution and 
values of our country, as well as making sure that all of the 
intelligence community keeps Congress and our oversight 
Committees completely and currently informed. That's the start 
of the list, but not all of it.
    Senator Blunt. Thank you. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Good afternoon, Ms. O'Sullivan. I, too, like Senator Blunt, 
want to thank you for taking the time to pay me a visit 
yesterday, and it helped me prepare for the hearing today.
    I think we discussed yesterday I sit on the Armed Services 
Committee and have an interest in that interaction between the 
intelligence community and the military, particularly outside 
of war zones. I believe there's some need to clarify those 
relationships.
    Do you think that there are areas where we need new 
guidelines or new agreements between the IC and the--I'll use 
some more acronyms--the DOD, intelligence community and the 
Department of Defense?
    Ms. O'Sullivan. I believe that, particularly in war zones, 
we operate quite effectively together, largely because our 
combined and joint mission is so clear. There aren't competing 
requirements. We're all pointing at the same thing.
    As far as additional guidance or structures, the DNI has 
worked very closely with the DOD and the SecDef to set up a 
number of bodies to work through CONOPS, policy, resource 
allocation, requirements allocation. So all of those lower-
level structures are being put in place to make sure that we 
work as effectively back here as we do out in the field.
    Senator Udall. This isn't necessarily the time to do this, 
but I think at some point perhaps we could more specifically 
pursue that question, say, for example, in Egypt, what sort of 
coordination was occurring there between what our defense 
analysts see and perceive and those in the ODNI world as well.
    Let me move to energy security. I think in your written 
response you mentioned energy security, along with climate 
change, as concerns that would have national security 
implications. What specific actions would you envision the IC 
taking now to make energy security a real priority, given what 
we're seeing in the Middle East and the potential for this 
unrest and instability to spread?
    Ms. O'Sullivan. As I was stating earlier, our analysis of 
the trends and the instability and impacts includes economic 
indicators. Energy security is a huge driver of that. It 
underlies a lot of the decisions and risks that are made, 
decisions that are made as we go forward.
    The analysts in the community have stood up. All of them 
have long-term strategic analysis plans that include looking at 
those longer-term issues, such as energy security, and 
including climate change, for which we've stood up a climate 
change center.
    Senator Udall. Again, I look forward to working more with 
you if you're confirmed.
    Let me turn to cybersecurity. Senator Feinstein led a very 
worthwhile and informative CODEL to China a year ago in May, 
and one of the subjects that we discussed in a series of 
meetings with the Chinese was cybersecurity. I know in your 
written responses to the pre-hearing questions, I think you 
said, ``The current balance favoring cyberactors who desire to 
exploit our vulnerabilities is likely to increase over the next 
five years.''
    You've got an engineering and science and tech background. 
Can you identify areas in which we can be working harder and 
maybe in a more focused way to address cybersecurity threats?
    Ms. O'Sullivan. You put your finger on one of the most 
complex and evolving threats that our country faces. It is 
indeed an increasing threat because, as you said, the advantage 
goes to the attacker in the cyber world. The IC in this 
endeavor has some very unique skills and capabilities that we 
can contribute. We have a couple of responsibilities and 
obligations as well. We track and identify cyber threats and 
warn of them. In addition, we have a responsibility to protect 
our own networks.
    It is in the course of that endeavor that we probably have 
some of the most valuable things that we can share, because our 
networks for a long time have faced both sophisticated and 
persistent attacks. So we've learned a great deal in the course 
of defending them. And NSA in particular brings a lot of very 
unique skills, which we are working and sharing, under the 
direction of the DNI, across the national security community.
    Senator Udall. So it's no secret that it's much easier to 
go on offense. It's much harder to defend networks and assets 
in cyber.
    Ms. O'Sullivan. Particularly in an open society.
    Senator Udall. Yes, our strength is sometimes our weakness, 
but vice versa as well.
    Ms. O'Sullivan. That's what we're here to defend.
    Senator Udall. CYBERCOM is standing itself up, and I'm 
curious if you'd have any thoughts in regard to the 
intelligence community's relationship with CYBERCOM. And, more 
specifically, do you have any concerns that laws and guidelines 
governing this area are lagging behind either the threat or our 
capabilities?
    Ms. O'Sullivan. CYBERCOM is standing up. And so what we're 
primarily going through now is setting up the interface 
structures between us, making sure that we hook up all the 
different parts of the community as this new organization steps 
forward and begins to take a more and more active role.
    So at the time I don't see any particular laws or 
authorities that are required. But, if confirmed, I would 
certainly pledge to bring back to you anything that I discover.
    Senator Udall. Well, thank you.
    Madam Chair, I operate in the spirit of you never get in 
trouble for something you didn't say, although my wife would 
disagree with me on occasion. But I do look forward to working 
on the Committee with the Chairwoman and with the Vice Chairman 
on cyber security and the important challenges we face there. 
But I also think we have some real opportunities if we get out 
front.
    So, again, Madam Chair, thank you for the time.
    Chairman Feinstein. Well, thank you very much, Senator 
Udall.
    Ms. O'Sullivan. Thank you.
    Chairman Feinstein. Senator Risch. I know. And I practiced.
    Senator Risch. The former Vice Chairman used to help me 
out.
    [Laughter.]
    Chairman Feinstein. I know.
    Senator Risch. I will pass. Thank you.
    [Laughter.]
    Chairman Feinstein. Oh. I'm embarrassed.
    I would like to ask one question. When I came on this 
Committee around 2001, it was right after the Peru shootdown 
incident. And this all struck us very, very strongly.
    Since that time, you have been chair of the Peru Air Bridge 
Denial Program accountability board. And the report, which was 
classified, has been unclassified and released. And essentially 
the Peruvian military and the CIA, which was involved in 
identifying the Bowers plane, admitted to the mistake but 
claimed the proper procedures had been followed and the plane 
had refused orders to land.
    The IG report found that the CIA may have misled Congress 
and the Justice Department by withholding information about the 
drug interdiction program. And there were other problematic 
incidents, more than 10, where planes were shot down and 
operational rules were violated as part of the CIA program.
    Now, it's my understanding that the board, which you 
chaired, conducted an examination of the conduct of 23 officers 
and recommended administrative penalties for 16 retired and 
current officers. In 2009 Director Panetta accepted the board's 
specific recommendations, which remain classified personnel 
decisions. But nonetheless, a substantial period of time had 
passed, and I am very concerned about misinforming the 
oversight committee, which I think is really untenable to have 
happen.
    What are your thoughts, having gone through this 
experience, to prevent what happened here from ever happening 
again and to really face up to an error and certainly testify 
or make an accurate report to the oversight committee about it?
    Ms. O'Sullivan. What we found that led to the behaviors 
that were cited in the IG report were numerous instances of 
people asserting compliance with procedures rather than 
documenting them in detail. It was sloppy and incomplete 
reporting. As a result of that, the board made several systemic 
recommendations, some of which were urged by the members of 
this Committee, to implement a lessons learned program.
    And so what we've done is we've just finished the first 
running of the lessons learned program based on this as a case 
study, and we're focused on the management cadre because they 
are the ones who set the standards for what are acceptable 
reporting levels.
    We also as a board agreed that the gravest offenses 
committed by the people that were sanctioned were those that 
touched on the grave responsibility of people to report 
accurately and completely to Congress. And we reserved our 
stiffest penalties for the people that we found had been 
careless in those duties. We feel that that is a startling 
standing lesson learned to all of our future management 
officers and are working hard to make sure that they all hear 
that lesson.
    Chairman Feinstein. Well, I very much appreciate that. And, 
you know, I hope that because of your work that something like 
this will never happen again, not only the shootdown, which 
killed innocent people, but the misrepresentation to this 
Committee and to the other Committee in the other house as 
well.
    Do you feel that this Committee can be assured that this 
will never happen again?
    Ms. O'Sullivan. I think that you can be assured that you 
have our pledge to do everything possible to make sure that we 
don't make mistakes of omission, that people provide full and 
complete reporting instead of assertions of fact, which is what 
this Committee needs to be able to do their oversight duties.
    Chairman Feinstein. That's right. That's right. And I thank 
you. I know this is painful work, but it's also very important. 
So I thank you for that.
    Mr. Vice Chairman, any other questions?
    Vice Chairman Chambliss. Just quickly. I want to go back to 
the question Senator Wyden asked you about when did the 
President know and what did he know with respect to Egypt. 
We're going to have a lot of lessons learned--or at least the 
opportunity to have a lot of lessons learned at the conclusion 
of this process, however long it takes or wherever it may go. 
And as part of our oversight duty we need to make sure that we 
are asking the hard and tough questions of the community with 
respect to the job that our folks are doing on the ground and 
the quality of information that's getting to the number one 
customer, which is the President.
    So what I would ask that you do, based upon the answer you 
gave and his follow-up question and the answer to that, I would 
like for you to go back and you know the people that know the 
specific answer.
    Ms. O'Sullivan. Yes.
    Vice Chairman Chambliss. And I would like for you to give 
the Committee in writing the timetable that the community 
advised the President of the seriousness of the situation 
surrounding President Mubarak, what we knew and when the 
President was told about the fact that he may be--or that this 
situation may evolve into one of the type of activity that we 
in fact have seen over the last week or so. And if you would do 
that in the next 10 days, I would appreciate that very much.
    Ms. O'Sullivan. Any shortfall in the response was entirely 
mine based on my own background and lack of involvement in the 
process of notification.
    Vice Chairman Chambliss. And I understand that. But it's a 
question that's been asked and that we do need the answer to.
    Chairman Feinstein. I think that's right. Thank you, Mr. 
Vice Chairman.
    Anyone else have any other questions they would like to 
ask?
    Vice Chairman Chambliss. Mr. Risch always has questions.
    [Laughter.]
    But he keeps them to himself sometimes.
    Chairman Feinstein. It's good to see you again, too.
    Ms. O'Sullivan, let me thank you for being here. I think 
you've answered the questions. There will be some questions in 
writing. I trust you're answering them as well. And we look 
forward to processing this as soon as we can.
    So thank you very much, and the Committee is adjourned.
    [Whereupon, at 3:25 p.m., the Committee adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 66577.001

[GRAPHIC] [TIFF OMITTED] 66577.002

[GRAPHIC] [TIFF OMITTED] 66577.003

[GRAPHIC] [TIFF OMITTED] 66577.004

[GRAPHIC] [TIFF OMITTED] 66577.005

[GRAPHIC] [TIFF OMITTED] 66577.006

[GRAPHIC] [TIFF OMITTED] 66577.007

[GRAPHIC] [TIFF OMITTED] 66577.008

[GRAPHIC] [TIFF OMITTED] 66577.009

[GRAPHIC] [TIFF OMITTED] 66577.010

[GRAPHIC] [TIFF OMITTED] 66577.011

[GRAPHIC] [TIFF OMITTED] 66577.012

[GRAPHIC] [TIFF OMITTED] 66577.013

[GRAPHIC] [TIFF OMITTED] 66577.014

[GRAPHIC] [TIFF OMITTED] 66577.015

[GRAPHIC] [TIFF OMITTED] 66577.016

[GRAPHIC] [TIFF OMITTED] 66577.017

[GRAPHIC] [TIFF OMITTED] 66577.018

[GRAPHIC] [TIFF OMITTED] 66577.019

[GRAPHIC] [TIFF OMITTED] 66577.020

[GRAPHIC] [TIFF OMITTED] 66577.021

[GRAPHIC] [TIFF OMITTED] 66577.022

[GRAPHIC] [TIFF OMITTED] 66577.023

[GRAPHIC] [TIFF OMITTED] 66577.024

[GRAPHIC] [TIFF OMITTED] 66577.025

[GRAPHIC] [TIFF OMITTED] 66577.026

[GRAPHIC] [TIFF OMITTED] 66577.027

[GRAPHIC] [TIFF OMITTED] 66577.028

[GRAPHIC] [TIFF OMITTED] 66577.029

[GRAPHIC] [TIFF OMITTED] 66577.030

[GRAPHIC] [TIFF OMITTED] 66577.031

[GRAPHIC] [TIFF OMITTED] 66577.032

[GRAPHIC] [TIFF OMITTED] 66577.033

[GRAPHIC] [TIFF OMITTED] 66577.034

[GRAPHIC] [TIFF OMITTED] 66577.035

[GRAPHIC] [TIFF OMITTED] 66577.036

[GRAPHIC] [TIFF OMITTED] 66577.037

[GRAPHIC] [TIFF OMITTED] 66577.038

[GRAPHIC] [TIFF OMITTED] 66577.039

[GRAPHIC] [TIFF OMITTED] 66577.040

[GRAPHIC] [TIFF OMITTED] 66577.041

[GRAPHIC] [TIFF OMITTED] 66577.042

[GRAPHIC] [TIFF OMITTED] 66577.043

[GRAPHIC] [TIFF OMITTED] 66577.044

[GRAPHIC] [TIFF OMITTED] 66577.045

[GRAPHIC] [TIFF OMITTED] 66577.046

[GRAPHIC] [TIFF OMITTED] 66577.047

[GRAPHIC] [TIFF OMITTED] 66577.048

[GRAPHIC] [TIFF OMITTED] 66577.049

[GRAPHIC] [TIFF OMITTED] 66577.050

[GRAPHIC] [TIFF OMITTED] 66577.051

[GRAPHIC] [TIFF OMITTED] 66577.052

[GRAPHIC] [TIFF OMITTED] 66577.053

[GRAPHIC] [TIFF OMITTED] 66577.054

[GRAPHIC] [TIFF OMITTED] 66577.055

[GRAPHIC] [TIFF OMITTED] 66577.056

[GRAPHIC] [TIFF OMITTED] 66577.057

[GRAPHIC] [TIFF OMITTED] 66577.058

[GRAPHIC] [TIFF OMITTED] 66577.059

[GRAPHIC] [TIFF OMITTED] 66577.060

[GRAPHIC] [TIFF OMITTED] 66577.061

[GRAPHIC] [TIFF OMITTED] 66577.062

[GRAPHIC] [TIFF OMITTED] 66577.063

  

                                  <all>

</pre></body></html>
